Low
|

C@OQCKLE

2311 Douglas Street E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B pets contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

Nos. 20-543, 20-544

STEVEN T. MNUCHIN, Secretary of the Treasury,
Petitioner,
v.

CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, ET AL.,
Respondents.

ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC., ET AL.,
Petitioners,

v.

CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, ET AL.,
Respondents.

 

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE STATE OF ALASKA IN SUPPORT OF PETITIONS FOR WRIT OF CERTIORARI in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5983 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 4th day of November, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

hen ecto hen ecto = Kepte. 0. Laas’ Qudraw- he Ghh

My Comm. Exp. September:
Notary Public Affiant

 

40284
